     Department of Homeland Security

     ��������������������������


FEMA Should Recover $7.5 Million of the $43.2 Million 

Public Assistance Grant Awarded to Craighead Electric 

         Cooperative Corporation, Arkansas





DD-13-14                               September 2013

                                  OFFICE O.F INSPECTOR GENERAL
                                       Department of Homeland Security
                                        \Vashington, DC 20528/ Vo'V•'Vt'.oi~.dhs.gov


                                                   SEP 2 0 2013


MEMORANDUM FOR:
                                                  _,
                                       George A. Robinson
                                       Regional A!l_ministrator, Region VI
                                       Fedecntmergenc Management Agency

FROM:                                  John   V~e             /~- - --
                                       Assist am: spector General
                                               t
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Should Recover $Z5 Million of the $43.2 Million
                                       Public Assistance Grant Awarded to Craighead Electric
                                       Cooperative Corporation, Arkansas
                                       FEMA Disaster Number 1819·DR·AR
                                       Audit Report Number DD-13·14

We audited Public Assistance grant funds awarded to Craighead Electric Cooperative
Corporation (Cooperative) in Arkansas (Public Assistance Identification Number OOG-
UXJS4·00). Our audit objective was to determine whether the Cooperative accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

The Arkansas Department of Emergency Management (ADEM), a FEMA grantee,
awarded the Cooperative $43.2 million for damages resulting from a severe winter
storm, which occurred January 26 through 30, 2009. The award provided 75 percent
funding for emergency protective measures (Category B) and permanent work
(Category F) for eight large projects. 1 The audit covered the period January 26, 2009, to
February 19, 2013, the cutoff date of our audit, and included a review of all projects
totaling $43.2 million, or 100 percent of the total award (see Exhibit, Schedule of
Projects Audited and Questioned Costs). As of our cutoff date, the Cooperative had
completed all of the projects, but FEMA had not closed them.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $64,200.
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


We conducted this performance audit between February and August 2013 pursuant to
the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, ADEM, and Cooperative officials; reviewed judgmentally
selected project costs (generally based on dollar value); and performed other
procedures considered necessary to accomplish our objective. We did not assess the
adequacy of the Cooperative’s internal controls applicable to grant activities because it
was not necessary to accomplish our audit objective. However, we did gain an
understanding of the Cooperative’s method of accounting for disaster-related costs and
its procurement policies and procedures.


                                      BACKGROUND

The Cooperative, a non-profit rural electric cooperative, began operations in 1937 with
75 miles of power lines. It currently has three offices, serves eight counties in northeast
Arkansas, maintains more than 4,700 miles of power lines, and provides electricity to
more than 27,000 customers. The 2009 winter storm coated power lines and trees with
ice. The added weight of the ice on power lines and trees damaged or destroyed
roughly 8,000 utility poles throughout the Cooperative’s service area (see figure 1).
These damaged or destroyed utility poles caused power outages to approximately
25,000 of the Cooperative’s customers.




www.oig.dhs.gov                              2                                    DD-13-14
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

           Figure 1. Downed Power Lines after Arkansas’ 2009 Winter Storm 





                  Source: http://craigheadelectric.coop.



                                         RESULTS OF AUDIT

The Cooperative generally accounted for and expended FEMA grant funds according to
Federal regulations and FEMA guidelines. The Cooperative used open and free
competition in awarding $5.6 million in contracts for permanent work, but did not take
required steps to ensure the use of small businesses, minority-owned firms, and
women’s business enterprises when possible and did not include federally required
provisions in its contracts. In addition, the Cooperative claimed $1.9 million in ineligible
mutual aid costs. As a result, we question $7.5 million of the Cooperative’s
$43.2 million award.

Finding A: Contracting Considerations and Provisions

After the Cooperative restored power to its customers, it used open and free
competition in awarding $5.6 million in contracts for permanent work. However, the
Cooperative did not take the required steps to assure that it used small businesses,
minority-owned firms, and women’s business enterprises when possible, and did not
include federally required provisions in its contracts. As a result, FEMA has no assurance
that the Cooperative provided small businesses, minority-owned firms, and women’s
business enterprises adequate opportunities to participate in federally funded work.
Also, by not including all of the required provisions in its contracts, the Cooperative did
not minimize the risk of contract misinterpretations and disputes. Therefore, we

www.oig.dhs.gov                                     3                              DD-13-14
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

question $5,563,004 ($4,172,253 Federal share) for contract work that the Cooperative
did not procure according to Federal regulations.

Federal regulation 2 CFR 215.44(b) requires subgrantees to take specific steps to ensure
the use of small businesses, minority-owned firms, and women’s business enterprises
whenever possible. These steps include using the services and assistance of the Small
Business Administration and the Minority Business Development Agency of the
Department of Commerce to solicit and use these firms. Cooperative officials said that
they were not aware of this requirement and that all businesses had an equal
opportunity to bid because they advertised the projects in the newspaper. Cooperative
officials also said that they were concerned about cost and contractor experience,
rather than a contractor’s business affiliation.

Federal regulation 2 CFR 215.48 requires subgrantees to include specific provisions in
their contracts. However, the Cooperative did not include all of the required
contracting provisions in any of the five contracts it awarded for permanent disaster
work. These contract provisions specify the rights and responsibilities of the parties and
minimize the risk of contract misinterpretations and disputes. For example, the
termination provision (2 CFR 215.48(b)) gives the subgrantee the right to end an
agreement with a contractor for non-performance; and the access to records provision
(2 CFR 215.48(d)) gives the subgrantee, the grantee, and FEMA the right to examine the
contractor’s records. Cooperative officials said that they had received FEMA disaster
assistance funds before, but had never been told that their contracts did not contain the
required provisions.

We discussed these procurement deficiencies with ADEM officials who said that they
provide contracting guidance through the resources that they provide applicants. In
addition, ADEM provides comments on contract-related issues if the subgrantee
requests it, but it does not approve or deny a subgrantee’s contracts. However,
according to 44 CFR 13.37(a)(2), the grantee is required to ensure that subgrantees are
aware of requirements that Federal regulations impose on them; and 44 CFR 13.40(a)
requires the grantee to manage the day-to-day operations of subgrant activity and
monitor subgrant activity to ensure compliance with applicable Federal requirements.

Finding B: Mutual Aid

The Cooperative appropriately used mutual aid agreements to restore power to its
customers and claimed $1.9 million for the work. However, FEMA classified all the
electrical work as permanent work (Category F); therefore, at the time of the disaster
the mutual aid costs were ineligible. FEMA’s Public Assistance Policy 9523.6, MutualfAidf
AgreementsfforfPublicfAssistancefandfFirefManagementfAssistance, section VII.F.1.b.(i),
dated August 13, 2007, cites permanent recovery work as an example of mutual aid

www.oig.dhs.gov                             4                                    DD-13-14
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

work that is not eligible. This policy also states in section 7.H.5 that “reimbursement for
work beyond emergency assistance, such as permanent repairs, is not eligible for
mutual aid assistance.”

FEMA officials said that they will request a waiver to FEMA’s mutual aid policy for this
specific disaster (FEMA-1819-DR). However, as of our exit conference with FEMA
Region VI on August 1, 2013, FEMA headquarters had not granted the waiver to its
policy. FEMA revised its Public Assistance Policy 9523.6 on November 10, 2012 (after
this disaster) to allow mutual aid work that is permanent in nature but that is necessary
to restore emergency electrical power. However, this updated policy does not apply
retroactively to Disaster 1819. Therefore, we question $1,888,717 ($1,416,538 Federal
share) in mutual aid costs unless FEMA Region VI obtains a waiver from FEMA
headquarters to allow these costs.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $5,563,004 ($4,172,253 Federal share) of ineligible costs
the Cooperative claimed for contract work that did not comply with 2 CFR 215.44(b)
that requires subgrantees to take affirmative steps to use small businesses, minority-
owned firms, and women’s business enterprises, and 2 CFR 215.48 that requires
subgrantees to include specific provisions in its contracts, unless FEMA decides to grant
an exception for all or part of the costs as provided for in 2 CFR 215.4 and Section 705(c)
of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended
(finding A).

Recommendation #2: Require ADEM to develop, document, and implement procedures
to ensure that subgrantees are aware of and follow Federal procurement standards
(finding A).

Recommendation #3: Disallow $1,888,717 ($1,416,538 Federal share) of ineligible costs
for mutual aid work, unless FEMA obtains a waiver to FEMA’s Public Assistance Policy
9523.6, dated August 13, 2007 (finding B).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with FEMA, ADEM, and Cooperative officials
during our audit and included their comments in this report, as appropriate. We also
provided a draft report in advance to these officials and discussed it at exit conferences

www.oig.dhs.gov                              5                                    DD-13-14
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

held with FEMA officials on August 1, 2013, ADEM officials on August 6, 2013, and
Cooperative officials on August 8, 2013. FEMA agreed with Finding B and
Recommendation 3, withheld comment on Finding A and Recommendation 2, and
disagreed with Recommendation 1. ADEM and Cooperative officials generally withheld
comment on our findings and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until we receive your
response, we will consider the recommendations open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Moises Dugan,
Supervisory Program Analyst; DeAnna Fox, Auditor-in-Charge; Pat Epperly, Program
Analyst; and Heather Hubbard, Auditor.

Please call me with any questions at (202) 254-4100 or your staff may contact
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            6                                     DD-13-14
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                                                                                Exhibit
                       Schedule of Projects Audited and Questioned Costs


                                                                                        Total
  Project         Category           Award                                           Questioned
  Number          of Work*          Amount             Finding A        Finding B      Costs
      940             B           $     66,206         $         0      $          0 $         0
   ** 947             B                 22,069                   0                0            0
      293             F              1,004,435             941,795                0      941,795
      745             F             18,131,077                   0          826,287      826,287
     758               F             8,274,623                   0          357,543      357,543
     762               F             7,489,019                   0          611,854      611,854
    1099               F             2,690,429           1,121,700           93,033    1,214,733
    1137               F             5,505,448           3,499,509                 0   3,499,509
   Totals                         $43,183,306          $5,563,004        $1,888,717   $7,451,721
* FEMA classifies disaster-related work by type: debris removal (Category A), emergency protective
measures (Category B), and permanent work (Categories C through G). Category F is for utility work.

** The award amount of $22,069 represents the allowable amount of donated resources based on the
non-Federal share of all other Category A and B projects. However, we determined the project size based
on the original $102,005 approved amount (per the D.1 Report in FEMA’s Emergency Management
Mission Integrated Environment (EMMIE), which represents eligible donated resources).




www.oig.dhs.gov                                    7                                          DD-13-14
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                                                        Appendix
                                Report Distribution List

Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-13-005)
Chief Procurement Officer

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

State
Director, Arkansas Department of Emergency Management
Legislative Auditor, Arkansas Division of Legislative Audit

Subgrantee
Chief Executive Officer, Craighead Electric Cooperative Corporation

Congress

Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure




www.oig.dhs.gov                            8                             DD-13-14
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
